2311 Douglas Street
Omaha, Nebraska 68102-1214

 

- E-Mail Address:
Le ga 1B ee contact@cocklelegalbriefs.com
pages

1-800-225-6964 Web Site

(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850

No. 19-518/No. 19-465

COLORADO DEPARTMENT OF STATE,
Petitioner,
v.
MICHEAL BACA, POLLY BACA AND
ROBERT NEMANICH,
Respondents.

PETER BRET CHIAFALO, LEVI JENNET GUERRA
AND ESTHER VIRGINIA JOHN,
Petitioners,
We
STATE OF WASHINGTON,
Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF FOR SOUTH
DAKOTA AND 44 STATES AND THE DISTRICT OF COLUMBIA AS AMICI CURIAE IN
SUPPORT OF COLORADO AND WASHINGTON in the above entitled case complies with the
typeface requirement of Supreme Court Rule 33.1(b), being prepared in New Century Schoolbook
12 point for the text and 10 point for the footnotes, and this brief contains 6802 words, excluding
the parts that are exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 8th day of April, 2020.
I am duly authorized under the laws of the State of Nebraska to administer oaths.

GENERAL NOTARY State of Nebraska foe & CL
f RENEE J. GOSS 9 7
My Comm. Exp. September 5, 2023, =
Notary Public Affiant 39695
